                     DEPART~IENT OF HEALTH AND HmvLL\1'\" SERVICES


                OFFICE OF INSPECTOR GENERAL
                                        WASI-Il:'iGTON, DC 2020i




                                               'JUlll Z013

TO: 	            George Sheldon
                 Acting Assistant Secretary
                 Administration for Children and Families
                                /S/
FROM:            Stuart Wright
                 Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Early Alert Memorandum Report : License-Exempt Child Care Providers
           in the Child Care and Development Fund Program, OEI-07-10-00231


This early alert memorandum report identifies gaps in States' health and safety
requirements and monitoring requirements for license-exempt child care providers in the
Child Care and Development Fund (CCDF) program, which is administered by the
Administration for Children and Families (ACF). The Office oflnspector General (OIG)
is conducting an evaluation entitled Child Care and Development Fund: Monitoring of
Licensed Child Care Providers (OEI -07-1 0-00230), with report publication anticipated in
fall 2013 . During data collection for this evaluation, we found that a number of States
(1) exempt CCDF subsidy-receiving providers from licensing requirements, (2) did not
report having certain health and safety requirements for license-exempt providers, and
(3) did not have requirements in place to monitor license-exempt providers.

SUMMARY

States are required to have health and safety standards in place for all providers ­
including license-exempt providers-receiving CCDF money. By statute, these
standards must cover three areas: prevention and control of infectious disease; building
and physical premises safety; and health and safety training. I

In reviewing information sent to us by the States, we found that a number of States did
not report having any requirements for license-exempt providers in at least one of the
three areas. Additionally, a few States reported that they did not have requirements in
place to monitor license-exempt providers. These States are not fully compliant with
Federal regulations. Other States reported allowing providers to self-certify compliance


I Section 658E( c)(2)(F)(i}-(iii) of the Child Care and Development Block Grant Act of 1990 (the CCDBG
Act).
Page 2 – George Sheldon


with health and safety requirements, and reported limited monitoring, limited use of
background checks, and provider nonreporting of serious injuries. We believe that these
gaps in health and safety requirements and gaps in monitoring represent vulnerabilities
that could potentially lead to harm for children in care, including care financed by the
Federal government.

On May 20, 2013, ACF issued a Notice of Proposed Rulemaking (NPRM) that included
regulations to strengthen health and safety requirements for and oversight of CCDF
providers.2 Although OIG acknowledges ACF’s efforts to make its regulations more
comprehensive, some States do not comply with the current Federal regulations for
license-exempt providers. Therefore, we are providing this early alert memorandum so
that ACF can use this information to bring those States into compliance with existing
Federal regulations.

As written, the proposed regulations do not allow providers to self-certify compliance
with health and safety requirements, and require States to take specific steps to monitor
all CCDF providers. OIG acknowledges the steps that ACF is taking to strengthen
oversight of license-exempt providers through the NPRM. ACF may want to use the
information in this memorandum report as further justification for finalizing the
regulations with these heightened oversight requirements.

BACKGROUND

For a State to be eligible to receive funds through CCDF, ACF must review and approve
a 2-year State plan.3 To continue receiving funding, a State must submit a new State plan
prior to the expiration of its current plan.4

Approximately 600,000 child care providers in 50 States and the District of Columbia
(States) provide child care funded through CCDF.5, 6 Federal regulations allow CCDF
expenditures for four types of child care:7 center-based, group home, family home, and
in-home. The two types of child care providers discussed in this memorandum are
center-based providers and family home providers; together, these two types covered, on
average, 89 percent of children in CCDF-subsidized care in fiscal year (FY) 2009.8
Center-based child care is provided in a nonresidential setting, and family home child


2
  78 Fed. Reg. 29441 (May 20, 2013).

3
  Each State plan includes information about the State’s CCDF program with regard to how it administers 

the program, child care services offered, parental rights and responsibilities, activities and services to

improve the quality and availability of child care, and health and safety requirements.

4
  45 CFR § 98.17.

5
  Table 7, CCDF, Number of Child Care Providers Receiving CCDF Funds (FFY 2009). Accessed at 

http://acf.hhs.gov on January 15, 2013. 

6
  Although there are tribal and territorial programs in CCDF, we are looking only at State programs. Tribal 

programs are subject to different legal requirements and policies. 

7
  45 CFR §§ 98.2 (Definitions) and 98.30(e)(1). 

8
  Table 3, CCDF, Average Monthly Percentages of Children Served by Types of Care (FFY [Federal Fiscal

Year] 2009). Accessed at http://acf.hhs.gov on January 15, 2013. All fiscal years referred to in this report

are Federal fiscal years.

Page 3 – George Sheldon


care is provided by one individual as the sole caregiver in a private residence other than
the child’s residence.

Child care providers who participate in the CCDF program must be operating legally
within the jurisdictions in which they operate. Providers must be licensed or regulated in
their respective jurisdictions or be legally exempt from regulation (license-exempt).9
Some States impose regulations on providers that are not licensed—Ohio, for instance,
certifies its family home providers. Certification in Ohio is a form of regulation under a
process that is very similar to licensing; because these providers are still regulated, we do
not consider them to be license-exempt.

According to ACF data, 21 percent of children whose care is funded through CCDF are
served by providers who would not be subject to any State or local child care
regulations—i.e., providers that we would consider license-exempt—if they were not
participating in the CCDF program.

Health and Safety Requirements
In accordance with the CCDBG Act, States must certify that under State or local law,
they have in effect requirements designed to protect the health and safety of children
receiving CCDF subsidies.10 Those requirements must include three areas: the
prevention and control of infectious disease (including immunizations); building and
physical premises safety; and minimum health and safety training appropriate to the
provider setting. For licensed providers, States’ licensing requirements fulfill these
statutory requirements. For license-exempt providers, ACF requires States in their State
plans to describe which providers are exempt from licensing under State law and instructs
them to describe how these providers will meet health and safety requirements for child
care services in each of the three required areas.

Monitoring Requirements
Section 685E(c)(2)(G) of the CCDBG Act requires States to ensure that providers serving
children whose care is subsidized through CCDF comply with applicable health and
safety standards. Federal regulations require each State to certify that it has procedures to
ensure that child care providers comply with applicable health and safety requirements.
ACF reported to us that, as part of the State plan, States certify that they have licensing
requirements applicable to child care services. States must describe those licensing
requirements and how they are effectively enforced. However, there are no specific
monitoring requirements for license-exempt providers. If the State conducts health and
safety monitoring only in conjunction with licensing requirements, then license-exempt
providers may not be effectively monitored.

ACF Oversight Requirements
The CCDBG Act requires Federal monitoring of each State’s compliance with its plan.11
Although the CCDBG Act does not require States to (1) conduct routine unannounced
inspections of child care providers, (2) perform background screenings on providers (or
9
  ACF, Fundamentals of CCDF Administration. Accessed at http://www.acf.hhs.gov/ on March 23, 2011. 

10
   Section 658E(c)(2)(F) of the CCDBG Act. 

11
   Section 658I(b)(1) of the CCDBG Act. 

Page 4 – George Sheldon


their family members), or (3) require providers to report serious injuries that occur while
a child is in care, ACF guidance instructs each State to indicate whether it performs these
three activities. States are also asked to describe any other methods they use to enforce
health and safety requirements (e.g., percentage of providers inspected annually and the
length of time between inspections).12

METHODOLOGY

As part of our study entitled Child Care and Development Fund: Monitoring of Licensed
Child Care Providers (OEI-07-10-00230), we surveyed the State staff responsible for
licensing; health and safety; and monitoring. We requested that each State describe the
health and safety requirements that fulfill requirements in the three areas (prevention and
control of infectious disease; building and physical premises safety; and health and safety
training), as well as monitoring methods for licensed and license-exempt child care
providers.

According to CCDF State plans, 30 States allow license-exempt center-based providers to
care for children receiving CCDF subsidies, and 33 States allow license-exempt family
home providers to care for these children.13

RESULTS

States exempt many CCDF subsidy-receiving providers that provide care for
children
State child care licensing regulations and monitoring and enforcement policies help
provide a minimum standard of protection for the health and safety of children in
out-of-home care. However, States are not required to apply licensing requirements to
specific kinds of child care providers in order for them to be eligible to receive CCDF
funds.14 Some States exempt providers because they are subject to different regulations
(e.g., those providers who are on Federal property and subject to requirements of the
Department of Defense). Providers that are exempt from licensing and not subject to
more stringent requirements may not provide the same standard of care as those providers
that are licensed. States exempt both center-based and family home providers.

Seven States exempt family home providers that care for children from one family,
regardless of the number of children. Often, this is in addition to any number of the
provider’s own children or relatives who are receiving care in the home. Eighteen States
exempt family home providers caring for five or fewer, three or fewer, or two or fewer


12
   ACF, CCDF State and Territories Plan Preprint Guidance, FFY 2010–2011. Accessed at
http://www.acf.hhs.gov on February 1, 2011.
13
   In its CCDF State plan, Wisconsin reported allowing CCDF funding for license-exempt center-based and
family home providers. However, on its survey, it reported that no CCDF funding is allowed for those
providers. In its CCDF State plan, Kansas reported all family home child care providers paid with CCDF
funds were subject to licensing under State law. However, during the period of our review, these providers
were actually “registered,” rather than licensed. Because the Kansas registration process relied mostly on
self-attestation of compliance, we included these providers in our analysis of license-exempt providers.
14
   Section 658E(c)(2)(E) of the CCDBG Act.
Page 5 – George Sheldon


children (six States total for each). See Appendix A for additional analysis of the types
of license-exempt providers.

Some States require providers that receive CCDF funds to register with the State. Utah,
which exempts family home providers caring for five or fewer children, maintains a
database of providers that are not licensed and that are paid through CCDF. These
providers self-certify that they meet minimum health and safety standards. Parents of
children in the care of license-exempt providers are notified that provider training is
available and are instructed to share this information with the provider. In FY 2010, on
average, 34 percent of children served by CCDF in Utah were cared for by
license-exempt providers.

Not all States required license-exempt child care providers to meet Federal health
and safety requirements
States are required to have in effect, under State or local law, requirements—designed to
protect the health and safety of children—that apply to child care providers paid through
CCDF. These requirements must include the prevention and control of infectious
diseases; building and physical premises safety; and minimum health and safety training
appropriate to the provider setting.15

Several States lacked one or more of these health and safety requirements for certain
license-exempt providers. In the extreme, Mississippi officials reported that they did not
have jurisdiction over license-exempt providers at all; they had no requirements for either
center-based or family home providers in any of the three areas required by the statute.
Two States did not report any requirements for license-exempt family home providers.
Nine States did not report any health and safety training requirements for license-exempt
center-based providers; four additional States lacked these requirements for family home
providers. See Appendix B for additional analysis of health and safety requirements.

States with health and safety requirements for license-exempt providers commonly
allowed providers to self-report compliance
The CCDBG Act requires States to have procedures in effect to ensure that child care
providers paid through CCDF comply with all applicable State or local health and safety
requirements.16 Of the States that did report health and safety requirements in the 3 areas,
9 States allowed center-based providers to self-report compliance with requirements,
while 23 States allowed family home providers to self-report compliance with at least one
requirement. In most States, this means providers simply return a checklist verifying
healthy and safe conditions of the home or center (e.g., the facility has working
telephones, child-accessible areas are free of hazards, alcohol and drugs are prohibited,
and/or home or center is pest-free).




15
     Section 658E(c)(2)(F) of the CCDBG Act.
16
     Section 658E(c)(2)(G) of the CCDBG Act.
Page 6 – George Sheldon


States did not always monitor license-exempt providers for compliance with health
and safety requirements
Although the CCDBG Act does not require States to (1) conduct routine unannounced
inspections of child care providers, (2) perform background screenings on providers (or
their family members), or (3) require providers to report serious injuries that occur while
a child is in care, ACF guidance instructs each State to indicate whether it performs these
three activities. In eight States, license-exempt family home providers are not required to
have a background check conducted. In most States, license-exempt providers are not
subject to routine monitoring visits. Monitoring requirements were particularly lacking
for family home providers. Additionally, only four States require license-exempt family
home providers to report serious injuries. See Appendix C for additional analysis of
monitoring requirements.

CONCLUSION

States may and do exempt many kinds of providers from licensing. These providers,
however, are still required to adhere to Federal health and safety requirements in order to
be eligible for CCDF payments. We found that not all States required license-exempt
child care providers to meet Federal health and safety requirements. Further, we found
insufficient procedures in effect to ensure that license-exempt child care providers
comply with applicable State or local health and safety requirements. ACF needs to be
reasonably assured that States have Federal health and safety requirements in place for
license-exempt providers and that States ensure compliance with these requirements
before they authorize CCDF vouchers.

As noted earlier, on May 20, 2013, ACF issued an NPRM that included regulations to
strengthen health and safety requirements for and oversight of CCDF providers.17 These
regulations, as written, propose more comprehensive health and safety requirements for
center-based, group home, and family home CCDF providers, including license-exempt
providers. States have the option to exempt in-home providers—i.e., individuals who
provide child care services in the child’s own residence—and providers caring for
relatives from these requirements. Comments on this proposed rule must be received on
or before August 5, 2013.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-07-10-0231 in all correspondence.




17
     78 Fed. Reg. 29441 (May 20, 2013).
 Page 7 – George Sheldon


 APPENDIX A

 Types of Center-Based License-Exempt Providers


 Reason Provider Is Exempt From
                                                                   States That Exempt Providers      Total Number of States
 Licensing


 Religious institution                                    AL, CT, FL, IL, IN, MA, MN, MO, NH, VA                        10
                                                   AL, CA, CT, FL, HI, IL, IN, LA, MA, ME, MN, MS,
 Public school                                                                                                          22
                                                       MO, NH, NY, ND, OR, UT, VA, WV, WI, WY
 Federal property                                              AL, IL, KS, MI, NY, OR, TX, UT, WY                        9
 Temporary/“short duration”                   AL, CA, HI, IN, MA, MN, MS, NY, OR, UT, WA, WV                            12
 Parent located on the premises                                   CA, IL, MI, MN, NH, OR, UT, WI                         8
Source: OIG analysis of State survey data, 2013.




 Types of Family Home License-Exempt Providers


 Reason Provider Is Exempt From
                                                                   States That Exempt Providers      Total Number of States
 Licensing


 Serves children from one family                                    CA, CO, MN, MT, NE, OR, WY                           7

 Serves two or fewer children                                            HI, ME, MT, NY, SC, WY                          6

 Serves three or fewer children                                            IL, NE, NH, OR, PA, WI                        6
 Serves four or fewer children                                                            MO, TN                         2
 Serves five or fewer children                                             IN, IA, MS, ND, UT, VA                        6
 Serves six or fewer children                                                              ID, KS                        2
 All family home providers are
                                                                                               LA                        1
 exempt
Source: OIG analysis of State survey data, 2013.
 Page 8 – George Sheldon


 APPENDIX B

 Methods Through Which States Allow Center-Based License-Exempt Providers To
 Meet Federal Health and Safety Requirements

                                                                Number of States With                Number of States With                Number of States
 Methods Through Which States Allow
                                                                      Requirement for              Requirement for Building           With Requirement for
 Center-Based License-Exempt Providers To
 Meet Health and Safety Requirements                         Prevention and Control of               and Physical Premises               Health and Safety
                                                                    Infectious Disease                               Safety                       Training
 Has same requirements as for licensed
 providers, or verifies requirements through an                                            5                                     7                            6
 inspection

 Allows center-based license-exempt providers
 to meet requirements through public school                                              14                                    13                            10
 requirements or other accreditation

 Allows center-based license-exempt providers
 to meet requirements through self-reported                                                9                                     8                            4
 compliance with health and safety requirements

 Did not allow CCDF funding to providers*                                                  1                                     1                            1
 No requirement                                                                            1                                     1                            9
                                                   Total                                 30                                    30                            30

*Note: In its CCDF State plan, Wisconsin reported allowing CCDF funding for license-exempt center-based and family home providers. However, on its survey
it reported that no CCDF funding is allowed for those providers.

Source: OIG analysis of State survey data, 2013.


 Health and Safety Requirement Fulfillment for Family Home License-Exempt 

 Providers 


                                                                Number of States With                Number of States With                Number of States
 Methods Through Which States Allow
                                                                      Requirement for              Requirement for Building           With Requirement for
 Family Home License-Exempt Providers To
                                                             Prevention and Control of               and Physical Premises               Health and Safety
 Meet Health and Safety Requirements
                                                                    Infectious Disease                               Safety                       Training

 Has same requirements as for licensed
 providers, or verifies requirements through an                                            8                                     6                            3
 inspection
 Allows family home providers to meet
                                                                                           1                                     1                           11
 requirements through training
 Allows family home providers to meet
 requirements through self-reported compliance                                           21                                    23                            10
 with health and safety requirements
 Did not allow CCDF funding to providers*                                                  1                                     1                            1
 No requirement                                                                            3                                     3                            9
                                                   Total                               34**                                  34**                           34**

*Note: In its CCDF State plan, Wisconsin reported allowing CCDF funding for license-exempt center-based and family home providers. However, on its survey
it reported that no CCDF funding is allowed for those providers.
**Note: In its CCDF State plan, Kansas reported that all family home child care providers paid with CCDF funds were subject to licensing under State law.
However, these providers were actually “registered,” not licensed, so we included them in our analysis of license-exempt providers.

Source: OIG analysis of State survey data, 2013.
 Page 9 – George Sheldon


 APPENDIX C

 Measures States Have in Place To Monitor Center-Based License-Exempt and
 Family Home License-Exempt Providers

                                                                    Number of States With Measure                     Number of States With
                                                                               in Place Regarding                Measure in Place Regarding
 Measure
                                                                                     Center-Based                              Family Home
                                                                       License-Exempt Providers                   License-Exempt Providers
 State conducts routine announced visits                                                                 6                               8
 State conducts routine unannounced visits                                                               7                               9
 State does not conduct routine visits                                                                 19*                              23*
 State performs background checks                                                                       15                              26
 State does not perform background checks                                                               15                               8
 State requires providers to report serious injuries                                                     6                               4
 State does not require providers to report serious
                                                                                                        24                              29
 injuries
*Note: Two States reported that they conduct both routine announced and routine unannounced visits for center-based
license-exempt providers. Six States reported that they conduct both types of visits for family home license-exempt
providers.

Source: OIG analysis of State survey data, 2013.
